ROB BONTA
Attorney General

State of California
DEPARTMENT OF JUSTICE
600 WEST BROADWAY, SUITE 1800
SAN DIEGO, CA 92101
P.O. BOX 85266
SAN DIEGO, CA 92186-5266

Telephone: (619) 738-9693
E-Mail: Helen.Hong@doj.ca.gov

July 9, 2021
Via Electronic Filing System
Hon. Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
RE:

Arizona, et al., v. City and County of San Francisco, California, et al.
Case No. 20-1775
Request for Extension of Time

Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on June 18, 2021. The response
to the petition is currently due on July 23, 2021. Pursuant to Rule 30.4, respondent States of
California, Maine, Pennsylvania, Oregon and the District of Columbia respectfully request that
the time for filing a response to the petition be extended by thirty days, up to and including
Monday, August 23, 2021. An extension of time is warranted due to the press of other business
and would better enable preparation of a response that respondents believe would be most
helpful to the Court.
Sincerely,
s/ Helen H. Hong
HELEN H. HONG
Deputy Solicitor General
For

ROB BONTA
Attorney General

